1

IN THE SUPREME COURT OF THE UNITED STATES

2

Jasper Crook,

3

Petitioner,

4

v.

5

Ricardo Aguilar, MAPFRE Insurance,

6

Respondents.

7
8

CERTIFICATE OF SERVICE

9
10

On September 1, 2021, I, Jasper Crook, Pro Se litigant, hereby certify that I
served the documents described as:

11
12

1. Motion for Leave to Proceed in Forma Pauperis, Motion to Proceed under
Judicial Notice of Guaranty of Free Justice and Open Courts(including
Exhibit 1 & notarized declaration).

13
14

2. Petition for Writ of Certiorari(including US Court of Appeals Ninth
Circuit's last order).

15
16
17
18
19
20

on all interested parties in this action by placing a true and correct copy
thereof in a sealed envelope, with first-class postage prepaid thereon, and
deposited said envelope in the United States mail at or in Hesperia,
California, addressed to:
2)
1)
US Supreme Court of the United States
*NO OPPOSING COUNSEL ON FILE
Attn: Clerk of the Court
1 1st Street NE
Washington DC 20543

21
I declare under penalty of perjury that the foregoing is true and correct.
22
23

Executed on September 1, 2021 at Hesperia, California.

24
Respect fullV'subijii

25

rd,

26
-308 without prejudice
UO
Jasper Crook, Beneficiary and
Administrator of the United States
of America, and Pro Se litigant

27
28

Certificate of Service

0

